                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Southwestern Federal Power System's Fiscal
Year 2013 Financial Statement Audit




 OAS-FS-14-09                        July 2014
                                  Department of Energy
                                    Washington, DC 20585

                                           July 1, 2014


MEMORANDUM FOR THE ADMINISTRATOR, SOUTHWESTERN POWER
               ADMINISTRATION


FROM:                     Daniel M. Weeber
                          Assistant Inspector General
                            for Audits and Administration
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Southwestern Federal Power
                          System's Fiscal Year 2013 Financial Statement Audit"


The attached report presents the results of the independent certified public accountants' audit of
the Southwestern Federal Power System's (SWFPS) combined balance sheets, as of September
30, 2013 and 2012, and the related combined statements of changes in capitalization, revenues
and expenses, and cash flows for the years then ended.

To fulfill the Office of Inspector General's (OIG) audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on SWFPS's financial statements and
reporting on applicable internal controls and compliance with laws and regulations. The OIG
monitored audit progress and reviewed the audit report and related documentation. This review
disclosed no instances where KPMG did not comply, in all material respects, with generally
accepted Government auditing standards. The OIG did not express an independent opinion on
SWFPS's financial statements.

KPMG concluded that the combined financial statements present fairly, in all material respects,
the respective financial position of SWFPS as of September 30, 2013 and 2012, and the results of
its operations and its cash flow for the years then ended, in conformity with United States
generally accepted accounting principles.

As part of this review, the auditors also considered SWFPS's internal controls over financial
reporting and tested for compliance with certain provisions of laws, regulations, contracts and
grant agreements that could have a direct and material effect on the determination of financial
statement amounts. The audit identified the following significant deficiencies in internal control
over financial reporting:

      •   One internal control deficiency over Accounting for Utility Plant was identified where
          depreciation for additions and betterments to existing plant in service was not recorded
          in accordance with accounting policies.
      •   One internal control deficiency over Accrued Expenses was identified where expenses
          for goods and services received were not properly accrued.

U.S. Army Corps of Engineers management agreed with the findings and recommendations and
agreed to take the necessary corrective actions.

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under Government auditing standards. We appreciated the cooperation of Department
of Energy elements during the review.

                                                               Report Number: OAS-FS-14-09

Attachment

cc:    Deputy Chief Financial Officer, CF-2
       Director, Office of Finance and Accounting, CF-10
       Acting Director, Office of Financial Risk, Policy and Controls, CF-50
       Assistant Director, Office of Financial Risk, Policy and Controls, CF-50
       Chief Financial Officer, Southwestern Power Administration
       Director, Division of Financial Management, Southwestern Power Administration
       Audit Resolution Specialist, Office of Financial Risk, Policy and Controls, CF-50
       Team Leader, Office of Financial Risk, Policy and Controls, CF-50




                                               2
                                                Attachment




SOUTHWESTERN FEDERAL POWER SYSTEM
        Combined Financial Statements
         September 30, 2013 and 2012
  (With Independent Auditors’ Report Thereon)
                                                                                           Attachment


                               KPMG LLP
                               Suite 800
                               1225 17th Street
                               Denver, CO 80202-5598




                                        Independent Auditors’ Report


Administrator, Southwestern Power Administration and the
 Inspector General, U. S. Department of Energy:

Report on the Financial Statements

We have audited the accompanying combined financial statements of the Southwestern Federal Power
System (SWFPS), which comprise the combined balance sheets as of September 30, 2013 and 2012, and
the related combined statements of changes in capitalization, revenues and expenses, and cash flows for the
years then ended, and the related notes to the combined financial statements. As described in note 1(a), the
combined financial statements include all of the hydroelectric generating and power operations of the U.S.
Army Corps of Engineers (the generating agency), and the transmission and disposition of the related
power by the Southwestern Power Administration (Southwestern), a component of the U.S. Department of
Energy.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these combined financial statements
in accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of combined financial
statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these combined financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the combined financial statements are free of
material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
combined financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the combined financial statements, whether due to fraud
or error. In making those risk assessments, the auditor considers internal control relevant to the entity’s
preparation and fair presentation of the combined financial statements in order to design audit procedures
that are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the combined
financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.

                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                                           Attachment




Opinion

In our opinion, the combined financial statements referred to above present fairly, in all material respects,
the respective financial position of the Southwestern Federal Power System as of September 30, 2013 and
2012, and the results of its operations and its cash flows for the years then ended in accordance with
U.S. generally accepted accounting principles.

Other Matters

Supplementary and Other Information

Our audits were conducted for the purpose of forming an opinion on the SWFPS’s basic combined
financial statements taken as a whole. The supplementary information in schedules 1 through 4 is presented
for purposes of additional analysis and is not a required part of the basic combined financial statements.

The supplementary information in schedules 1 through 4 is the responsibility of management and was
derived from and relates directly to the underlying accounting and other records used to prepare the basic
combined financial statements. Such information has been subjected to the auditing procedures applied in
the audits of the basic combined financial statements and certain additional procedures, including
comparing and reconciling such information directly to the underlying accounting and other records used
to prepare the basic combined financial statements or to the basic combined financial statements
themselves, and other additional procedures in accordance with auditing standards generally accepted in
the United States of America. In our opinion, the supplementary information in schedules 1 through 4 is
fairly stated, in all material respects, in relation to the basic combined financial statements as a whole.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated June 18, 2014
on our consideration of SWFPS’s internal control over financial reporting and our report dated June 18,
2014 on our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards in considering SWFPS’s
internal control over financial reporting and compliance.




Denver, Colorado
June 18, 2014




                                                  2
                                                                                               Attachment


                                 KPMG LLP
                                 Suite 800
                                 1225 17th Street
                                 Denver, CO 80202-5598




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Administrator, Southwestern Power Administration and the
 Inspector General, U.S. Department of Energy:

We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the combined financial statements of the
Southwestern Federal Power System (SWFPS), which comprise the combined balance sheets as of
September 30, 2013 and 2012, and the related combined statements of changes in capitalization, revenues
and expenses, and cash flows for the years then ended, and the related notes to the combined financial
statements, and have issued our report thereon dated June 18, 2014. The combined financial statements
include all of the hydroelectric generating and power operations of the U.S. Army Corps of Engineers (the
generating agency), and the transmission and disposition of the related power by the Southwestern Power
Administration (Southwestern), a component of the U.S. Department of Energy.

Internal Control over Financial Reporting

In planning and performing our audit of the combined financial statements as of and for the year ended
September 30, 2013, we considered SWFPS’s internal control over financial reporting (internal control) to
determine the audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the combined financial statements, but not for the purpose of expressing an opinion on the
effectiveness of SWFPS’s internal control. Accordingly, we do not express an opinion on the effectiveness
of SWFPS’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the combined financial statements will not be prevented, or detected and corrected, on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified.. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, material weaknesses may exist
that have not been identified. We did identify certain deficiencies in internal control, described below, that
we consider to be significant deficiencies. Exhibit I presents the status of prior year significant
deficiencies.



                                                             3
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                                           Attachment




A.   Significant Deficiency in Internal Control over Utility Plant

     The combined financial statements include the hydroelectric power generating functions of the
     generating agency, for which Southwestern markets and transmits power. Southwestern maintains the
     responsibility of preparing the combined financial statements and related footnotes in accordance with
     the U.S. Department of Energy Order RA 6120.2, dated September 20, 1979.

     SWFPS owns and operates over 1,400 miles of high voltage transmission lines, substations, and
     communication sites, with more than $795.9 million of net plant in service and more than $212.6
     million of construction work in progress (CWIP). Southwestern and the generating agency are
     responsible for properly accounting for utility plant, including assigning appropriate useful lives and
     classifying acquisitions into appropriate asset categories.

     During our test work over utility plant, we identified the following conditions:

         Certain additions to Vicksburg’s CWIP projects, although relating to the power function, were
          initially recorded to the recreation purpose code and subsequently reclassified. While the
          approximate $373,000 in transactions identified only represents a small portion of the combined
          CWIP balance, insufficient controls over the classification of individual CWIP expenditures may
          result in a misstatement that, when aggregated, is more than inconsequential to the combined
          financial statements.

         Certain balances within Vicksburg’s CWIP projects were substantially complete but were not
          appropriately transferred to plant in service or depreciated. We identified $1.1 million in
          balances that should have been reclassified; however, we concluded that there was not a
          significant impact on recorded depreciation expense for the period ended September 30, 2013.

         Interest during construction (IDC) on CWIP balances, specifically those within U.S. Treasury
          symbol ending in 8862, was not properly recorded throughout the various districts of the
          generating agency. Specifically, the Vicksburg, Ft. Worth, and Tulsa districts did not capitalize
          interest on the related outstanding CWIP balances, resulting in an understatement of IDC as well
          as an inconsistency between those districts that did record IDC and those that did not.
          Management subsequently calculated IDC and recorded an adjustment to the combined financial
          statements.

     Recommendations

     1.   Evaluate existing generating agency policies and procedures over the review and approval of
          CWIP expenditures to ensure they are designed at the appropriate level of precision to properly
          code the purpose of the transaction.

     2.   Evaluate existing generating agency policies and procedures over the review of outstanding
          CWIP balances to ensure they are designed at the appropriate level of precision to identify,
          transfer to plant in service, and depreciate substantially completed projects.




                                                  4
                                                                                          Attachment




     3.   Evaluate existing generating agency policies and procedures over the recording of IDC to ensure
          (a) consistent treatment across all relevant generating agency districts and (b) recorded on all
          relevant CWIP balances.

     Management’s Response

     Generating agency management concurs with the findings and will take corrective action.

B.   Significant Deficiency in Internal Control over Accrued Expenses

     During our test work over the combined financial statements, we identified instances where SWFPS
     did not properly accrue for goods and services received prior to September 30, 2013. Specifically, we
     identified the following condition:

         We identified $1.2 million of goods and services received prior to September 30, 2013 at the
          Little Rock and Tulsa districts that should have been accrued but were not. Of the $1.2 million,
          approximately $1.1 million related to CWIP. While the approximate $1.1 million in transactions
          identified only represents a small portion of the combined CWIP balance, insufficient controls
          over ensuring accruals are complete may result in a misstatement that, when aggregated, is more
          than inconsequential to the combined financial statements.

     Recommendations

     1.   Evaluate existing generating agency policies and procedures over preparing accruals at period
          end to ensure they are designed at the appropriate level of precision to identify all appropriate
          accruals.

     2.   Consider implementing procedures to review disbursements made subsequent to year-end to
          ensure all appropriate accruals have been recorded.

     Management’s Response

     Generating agency management concurs with the findings and will take corrective action.

SWFPS’S Responses to Findings

SWFPS’s responses to the significant deficiencies identified in our audit are described previously.
SWFPS’s responses were not subjected to the auditing procedures applied in the audit of the combined
financial statements and, accordingly, we express no opinion on the responses.




                                                 5
                                                                                             Attachment




Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of SWFPS’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
SWFPS’s internal control. Accordingly, this communication is not suitable for any other purpose.




Denver, Colorado
June 18, 2014




                                                   6
                                                                                   Attachment



                                                                                         Exhibit I

                  SOUTHWESTERN FEDERAL POWER SYSTEM
                               Status of Prior Year Findings
                                    September 30, 2013




     Reference                 Condition                                  Status
A.               Significant Deficiency in Internal        This condition has been partially
                    Control over Utility Plant               corrected. Refer to significant
                                                             deficiency A.


B.               Significant Deficiency in Internal        This condition has not been
                    Control over Accounting Policies         corrected. Refer to significant
                    and Procedures                           deficiency B.




                                         7
                                                                                            Attachment


                                KPMG LLP
                                Suite 800
                                1225 17th Street
                                Denver, CO 80202-5598




 Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Combined
       Financial Statements Performed in Accordance With Government Auditing Standards


Administrator, Southwestern Power Administration and the
 Inspector General, U.S. Department of Energy:

We have audited, in accordance with auditing standards generally accepted in the United States of America
and the standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States, the combined financial statements of the Southwestern Federal
Power System (SWFPS), which comprise the combined balance sheets as of September 30, 2013 and 2012,
and the related combined statements of changes in capitalization, revenues and expenses, and cash flows
for the years then ended, and the related notes to the combined financial statements, and have issued our
report thereon dated June 18, 2014. The combined financial statements include all of the hydroelectric
generating and power operations of the U.S. Army Corps of Engineers (the generating agency), and the
transmission and disposition of the related power by the Southwestern Power Administration
(Southwestern), a component of the U.S. Department of Energy.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether SWFPS’s combined financial statements are free
from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of combined financial statement amounts. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion. The results of our tests of compliance disclosed no instances of noncompliance or other
matters that are required to be reported herein under Government Auditing Standards.

Purpose of this Report
The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on SWFPS’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering SWFPS’s compliance.
Accordingly, this communication is not suitable for any other purpose.




Denver, Colorado
June 18, 2014




                                                             8
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                                                                               Attachment



                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                            Combined Balance Sheets
                                           September 30, 2013 and 2012


                                  Assets                                         2013               2012
Plant in service                                                         $ 1,497,494,432        1,461,505,101  
Accumulated depreciation                                                    (701,560,020)        (675,046,190) 
Construction work in progress                                                212,684,411          187,705,708  
              Net utility plant                                              1,008,618,823       974,164,619  
Cash                                                                          262,678,431        225,915,198  
Funds held in escrow                                                           73,829,227         86,596,550  
Accounts receivable                                                            22,965,656         17,641,927  
Material and supplies, at average cost                                          2,988,073          2,912,428  
Banking exchange receivables                                                    4,151,402          4,152,093  
Deferred workers’ compensation                                                 13,332,550         14,372,940  
Other assets                                                                   55,418,827         33,291,690  
              Total assets                                               $ 1,443,982,989        1,359,047,445  
                   Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                              $     19,495,625         14,949,158  
   Advances for construction                                                   47,150,029         22,632,486  
   Accrued workers’ compensation                                               14,584,118         15,638,595  
   Purchased power and banking exchange deferral                               28,519,474         39,436,080  
   Hydropower water storage reallocation deferral                              60,568,075         60,513,411  
              Total liabilities                                               170,317,321        153,169,730  
Capitalization:
  Payable to U.S. Treasury                                                    936,990,871        896,961,854  
  Accumulated net revenues                                                    336,674,797        308,915,861  
              Total capitalization                                           1,273,665,668      1,205,877,715  
Commitments and contingencies (notes 5 and 6)
              Total liabilities and capitalization                       $ 1,443,982,989        1,359,047,445  


See accompanying notes to combined financial statements.




                                                       9
                                                                                                          Attachment



                                    SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Combined Statements of Changes in Capitalization
                                          Years ended September 30, 2013 and 2012


                                                                      Payable to         Accumulated            Total
                                                                     U.S. Treasury       net revenues       capitalization
Total capitalization as of September 30, 2011                   $     858,413,041         265,129,137       1,123,542,178  
Additions:
  Congressional appropriations                                         51,829,037          17,000,000         68,829,037  
  Interest on payable to U.S. Treasury and other                       15,831,486                  —          15,831,486  
  Transfers of property and services, net                               4,967,592                  —           4,967,592  
              Total additions to capitalization                        72,628,115          17,000,000          89,628,115  
Deductions:
  Payments to U.S. Treasury                                           (34,079,302)                 —          (34,079,302) 
Net revenues for the year ended September 30, 2012                             —           26,786,724         26,786,724  
Total capitalization as of September 30, 2012                         896,961,854         308,915,861       1,205,877,715  
Additions:
  Congressional appropriations                                         44,124,896                  —          44,124,896  
  Interest on payable to U.S. Treasury and other                       19,643,474                  —          19,643,474  
  Transfers of property and services, net                              16,385,064                  —          16,385,064  
              Total additions to capitalization                        80,153,434                  —          80,153,434  
Deductions:
  Payments to U.S. Treasury                                           (40,124,417)                 —          (40,124,417) 
Net revenues for the year ended September 30, 2013                             —           27,758,936         27,758,936  
Total capitalization as of September 30, 2013                    $    936,990,871         336,674,797       1,273,665,668  




See accompanying notes to combined financial statements.




                                                           10
                                                                                              Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                               Combined Statements of Revenues and Expenses
                                     Years ended September 30, 2013 and 2012


                                                                                 2013             2012
Operating revenues:
  Sales of electric power                                              $       163,239,834     156,918,798   
  Transmission and other operating revenues                                     20,616,698      21,374,645   
              Total operating revenues before deferrals                        183,856,532     178,293,443   
  Net purchased power and banking exchange deferral                             12,112,439      16,659,798   
              Total operating revenues                                         195,968,971     194,953,241   
  Non reimbursable revenues                                                      1,985,002         458,141   
              Total revenues                                                   197,953,973     195,411,382   
Operating expenses:
  Operation and maintenance                                                     70,949,266      77,748,200   
  Purchased power and banking exchange                                          29,447,690      31,776,926   
  Depreciation and amortization                                                 28,884,463      28,410,947   
  Transmission service charges by others                                         3,160,203       3,083,784   
  Retirement and other employee benefit expense                                  6,596,930       7,133,136   
  Non reimbursable expenses                                                     17,781,446       6,740,628   
              Total operating expenses                                         156,819,998     154,893,621   
              Net operating revenues                                            41,133,975      40,517,761   
Interest expense:
   Interest on payable to U.S. Treasury and other                               22,096,789      19,905,550   
   Allowance for funds used during construction                                 (8,721,750)     (6,174,513)  
              Net interest expense                                              13,375,039      13,731,037   
              Net revenues                                             $        27,758,936      26,786,724   


See accompanying notes to combined financial statements.




                                                      11
                                                                                                 Attachment



                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                        Combined Statements of Cash Flows
                                      Years ended September 30, 2013 and 2012


                                                                                   2013               2012
Cash flows from operating activities:
  Net revenues                                                          $        27,758,936         26,786,724   
  Adjustments to reconcile net revenues to net cash
     provided by operating activities:
        Depreciation and amortization                                            28,884,463         28,410,947   
        Benefit expense paid by other Federal agencies                            3,363,767          3,536,950   
        Interest on payable to U.S. Treasury and other                           22,096,789         19,862,967   
        Allowance for funds used during construction                             (8,721,750)        (6,174,513)  
        (Increase) decrease in assets:
           Accounts receivable                                                   (5,323,729)        (2,367,353)  
           Materials and supplies                                                   (75,645)          (223,619)  
           Banking exchange receivables                                                 691           (187,076)  
           Deferred workers’ compensation                                         1,040,390         (1,608,275)  
           Other assets                                                         (22,127,137)        (2,067,269)  
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                               4,546,467             77,707   
           Accrued workers’ compensation                                         (1,054,477)         1,683,972   
           Purchased power and banking exchange deferral                        (11,727,631)       (16,460,039)  
           Advances for construction                                             24,517,543           (110,236)  
               Net cash provided by operating activities                         63,178,677         51,160,887   
Cash flows used in investing activities:
  Additions to utility plant                                                    (54,616,917)       (52,305,387)  
Cash flows from financing activities:
  Congressional appropriations                                                   44,124,896         68,829,037   
  Payments to U.S. Treasury                                                     (40,124,417)       (34,079,302)  
  Transfers of property and services, net                                        13,021,297          1,430,642   
  Hydropower water storage reallocation deferral                                 (1,587,626)        (1,554,971)  
  Funds received in escrow                                                      (38,277,208)       (98,863,373)  
  Funds disbursed from escrow                                                    51,044,531         66,470,839   
               Net cash provided by financing activities                         28,201,473          2,232,872   
               Net increase in cash                                              36,763,233          1,088,372   
Cash, beginning of year                                                         225,915,198       224,826,826   
Cash, end of year                                                       $       262,678,431       225,915,198   
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                           $         2,453,315          4,031,481   


See accompanying notes to combined financial statements.

                                                       12
                                                                                                 Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                         September 30, 2013 and 2012



(1)   Summary of Significant Accounting Policies
      (a)   General Information and Basis of Preparation of Financial Statements
            The Southwestern Federal Power System (SWFPS) financial statements combine all of the activities
            associated with the production, transmission, and disposition of all Federal power marketed
            under Section 5 of the Flood Control Act of 1944 (the Flood Control Act) by the Southwestern
            Power Administration (Southwestern), an agency of the U.S. Department of Energy (DOE). The
            accompanying combined financial statements include the accounts of Southwestern and the related
            hydroelectric generating facilities and power operations of the U.S. Army Corps of Engineers
            (Corps), an agency of the U.S. Department of Defense (DOD). Southwestern and the Corps are
            separately managed and financed and each maintains their own accounting records. For purposes of
            financial and operational reporting, the facilities and related operations of Southwestern and the
            Corps (power purpose) are combined as SWFPS.

            The Corps has constructed and operates hydroelectric generating facilities in the states of Arkansas,
            Missouri, Oklahoma, and Texas. Operating expenses and net assets of multipurpose Corps projects
            are allocated to power and nonpower purposes (primarily recreation and flood control). Only the
            portion of such project costs and net assets allocated to power are included in the combined financial
            statements. Southwestern, as designated by the Secretary of Energy, transmits and markets power
            generated from these hydroelectric generating facilities.

            SWFPS is subject to the accounting regulations of the Federal Energy Regulatory Commission
            (FERC). Accounts are maintained in accordance with accounting principles generally accepted in the
            United States of America (U.S. GAAP) as established by the Financial Accounting Standards Board
            (FASB), the uniform system of accounts prescribed for electric utilities by the FERC, the accounting
            practices and standards established by the DOE and DOD, and the requirements of specific
            legislation and executive directives issued by government agencies. All material intra-entity balances
            and transactions have been eliminated. SWFPS’s combined financial statements follow the
            accounting and reporting guidance contained in FASB Accounting Standards Codification
            (ASC) Topic 980, Regulated Operations. Allocation of costs and revenues to accounting periods for
            rate-making and regulatory purposes may differ from bases generally applied by nonregulated
            companies. Such allocations to meet regulatory accounting requirements are considered to be
            U.S. GAAP for regulated utilities, provided that there is a demonstrable ability to recover any
            deferred costs in future rates and such costs or revenues are accounted for as regulatory assets or
            liabilities.

      (b)   Confirmation and Approval of New Rates
            SWFPS is not a public utility within the jurisdiction of the FERC under the Federal Power Act.
            Under a Delegation Order issued by the Secretary of Energy, the Administrator of Southwestern has
            the authority to develop power and transmission rates for the SWFPS. Such rates are approved on an
            interim basis by the Deputy Secretary of Energy. The FERC has the exclusive authority to confirm,
            approve, and place into effect on a final basis, to remand, or to disapprove, rates developed by the
            Administrator.



                                                      13
                                                                                               Attachment



                        SOUTHWESTERN FEDERAL POWER SYSTEM
                               Notes to Combined Financial Statements
                                     September 30, 2013 and 2012



      The FERC’s review is limited to (1) whether the rates are the lowest possible consistent with sound
      business principles, (2) whether the revenue levels generated are sufficient to recover the costs of
      producing and transmitting electric energy, including repayment within the period permitted by law,
      and (3) the assumptions and projections used in developing the rates component. The FERC shall
      reject decisions of the Administrator only if it finds them to be arbitrary, capricious, or in violation of
      the law.

      The rates in effect as of September 30, 2013 are summarized as follows:

      The Integrated System rate schedules were placed into effect January 1, 2012 and were confirmed
      and approved by the FERC on March 5, 2012. These rate schedules incorporated a 5.4% revenue
      increase and remain in effect through September 30, 2015, or until superseded by new rate
      schedules.

      The Robert D. Willis project rate was placed into effect October 1, 2012 and was confirmed and
      approved by the FERC on April 29, 2013. This rate increase incorporated a 15.4% revenue increase
      for the period October 1, 2012 through September 30, 2016.

      The Sam Rayburn Dam project rate required no rate increase during fiscal year 2013. The approved
      Sam Rayburn Dam project rate in effect from January 1, 2009 through September 30, 2012 was
      extended for a one-year period through September 30, 2013. This extension was approved by the
      Deputy Secretary on November 7, 2012.

(c)   Utility Plant and Depreciation (Note 2)
      Utility plant includes items such as dams, spillways, generators, turbines, substations and related
      components (generating facilities), and transmission lines and related components. Utility plant is
      stated at original cost, net of contributions by external entities. Property transferred from other
      government agencies is transferred at net book value. Cost includes direct labor and material,
      payments to contractors, indirect charges for engineering, supervision and similar overhead items,
      and an allowance for funds used during construction. The costs of additions and betterments are
      capitalized. Repairs and minor replacements are charged to operation and maintenance expense.
      Generally, the net cost of utility plant retired, together with removal costs less salvage, is charged to
      depreciation when the property is removed from service.

      The policy of Southwestern and the Corps is to move capitalized costs into completed utility plant at
      the time a project or feature of a project is deemed to be substantially complete. A project is
      substantially complete when it is providing benefits and services for the intended purpose and is
      generating project purpose revenue, where applicable.

      Depreciation on utility plant is computed on a straight-line basis over the estimated service lives of
      the various classes of property. Service lives currently range from 5 to 100 years for transmission
      plant and generating facility components.

(d)   Cash and Funds Held in Escrow
      Cash represents the unexpended balance of funds authorized by Congress, customer advances, and
      spectrum relocation funds, held at the U.S. Department of the Treasury (Treasury). Cash received
                                                   14
                                                                                           Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



      from the sale of power is generally deposited directly with the Treasury and is reflected as
      “Payments to U.S. Treasury” in the accompanying combined financial statements. Cash held for
      customer advances is restricted for the purposes agreed to between Southwestern and the customer.

      Funds held in escrow represent the unexpended balance of funds held in a bank trust account under
      alternative financing agreements (note 4b) with certain customers and are restricted specifically to
      fund operation, maintenance, rehabilitation, and modernization activities at hydroelectric generating
      facilities of the Corps in SWFPS’s marketing region. Under the agreements, funds deposited to the
      escrow account by customers are credited by Southwestern against accounts receivable for power
      and energy sold to the customer. The escrowed funds are transferred to the Corps, as needed, to meet
      contractual obligations as outlined in the agreements. Unused funds held in escrow, if any, will be
      returned to Southwestern and then to the Treasury upon termination of the agreements.

(e)   Congressional Appropriations
      Southwestern and the Corps receive congressional appropriations through DOE and DOD,
      respectively, to finance their operations. Certain of Southwestern’s appropriations are offset by the
      use of receipts collected from the sale of Federal hydroelectric power, resulting in a net zero
      appropriation. The Corps also receives appropriations to finance construction of its hydroelectric
      projects. In accordance with the Flood Control Act, Southwestern is responsible for repayment to the
      Federal government, with interest, of its appropriations, and the portion of congressional
      appropriations allocated to the Corps for construction and operations of the power projects.

      Congressional appropriations received by the Corps are authorized and allocated to individual
      projects. It is the intent of the Corps’ project management to distribute congressional appropriations
      in amounts approximating estimated current year expenses and to adjust the distribution as necessary
      within the limits of the transfer authority residing at the district level. Project costs that are not
      specific to a project purpose are distributed between power and nonpower purposes based on project
      cost allocation.

(f)   Operating Revenues
      Operating revenues are recorded on the basis of service rendered. Rates are established under
      requirements of the Flood Control Act, related legislation and executive departmental directives, and
      are to provide sufficient revenues to meet all required repayment of system costs, including operation
      and maintenance expenses less depreciation, interest, and payment to the U.S. Treasury for the
      Payable to U.S. Treasury in utility plant. Rates are intended to provide for recovery of the Payable to
      U.S. Treasury in transmission and generating facilities not to exceed 50 years from the date placed in
      service, while operation and maintenance costs and interest on Payable to U.S. Treasury are intended
      to be recovered annually.

      As set forth in “Utility Plant and Depreciation” above, assets are being depreciated for financial
      reporting purposes using the straight-line method over their estimated service lives, which currently
      range from 5 to 100 years for transmission and generating facility components. Accordingly, annual
      depreciation charges are not matched with the recovery of the related capital costs and will, in the
      case of generating facilities, continue beyond the period within which such costs will have been
      recovered through rates.

                                                 15
                                                                                           Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



      While energy and transmission rates are established to recover the costs of operating the power
      projects, rates are also required to be at the lowest possible level, consistent with sound business
      principles. Over the life of the power system, accumulated net revenues represent differences
      between the timing of the recognition of expenses and related revenues, resulting primarily from the
      difference between the recognition of depreciation and the related recovery of the U.S. Treasury’s
      investment in utility plant. SWFPS is a Federal entity, thus at any given time, the accumulated net
      revenues, to the extent available, are committed to the repayment of the Payable to U.S. Treasury.

      The practices followed by Southwestern and the Corps are in conformity with the accounting
      practices and standards established by DOE and DOD and the requirements of specific legislation
      and executive directives issued by government agencies. Based upon guidelines established in DOE
      Order RA 6120.2, revenues distributed to the Corps cover annual operating expenses, including
      interest, with the remainder applied to the unpaid generation investment.

      In addition to providing electric power and energy, Southwestern provides scheduling, billing, and
      other ancillary services. Southwestern may provide multiple services to any one customer and
      accounts for these arrangements in accordance with the provisions of ASC Subtopic 605-25,
      Revenue Recognition – Multiple-Element Arrangements. Services qualify as separate units of
      accounting with distinguishable rates, terms, and delivery schedules. Services are provided to meet
      customer load requirements and revenues are recognized when services are provided.

(g)   Regulatory Assets and Liabilities (Note 3)
      Regulatory assets and liabilities result from rate actions of Southwestern’s Administrator and other
      regulatory agencies. These assets and liabilities arise from specific costs and revenues that would
      have been included in the determination of net revenue in one period, but are deferred until a
      different period for purposes of developing rates to charge for services, per the requirements of ASC
      Topic 980. SWFPS defers transactions as regulatory assets and liabilities so that costs will be
      recovered during the periods when the costs are scheduled to be paid. This ensures the matching of
      revenues and expenses. The assets and liabilities below are regulatory in nature:

      Deferred Workers’ Compensation

      Workers’ compensation consists of two elements: actuarial liability associated with workers’
      compensation cases incurred for which additional claims may still be made in the future (future
      claims) and a liability for expenses associated with actual claims incurred and paid by the
      Department of Labor (DOL), the program administrator, whom SWFPS must reimburse. DOL, DOE,
      and DOD determined Southwestern and the Corps’ actuarial liability associated with workers’
      compensation cases. The actuarial liability for future claims was determined using historical benefit
      payment patterns and the Treasury discount rates.

      The recovery of these future claims will be deferred for purposes of the rate-making process until
      such time as the future claims are actually submitted and paid by the DOL. Therefore, the
      recognition of the expenses associated with this actuarially determined liability has been recorded as
      deferred workers’ compensation in the combined balance sheets in accordance with ASC Topic 980
      to reflect the effects of the rate-making process. SWFPS does not earn a rate of return on the deferred
      workers’ compensation regulatory asset.

                                                 16
                                                                                   Attachment



                SOUTHWESTERN FEDERAL POWER SYSTEM
                       Notes to Combined Financial Statements
                             September 30, 2013 and 2012



Denison Hydropower Water Storage Reallocation

Section 838 of P.L. 99-662 (Section 838) authorized the Corps to reallocate hydropower storage to
water supply storage at Lake Texoma, in increments as needed, up to 150,000 acre-feet for users in
the State of Texas and up to 150,000 acre-feet for users in the State of Oklahoma. Section 838
directed that the Corps would provide credits to Southwestern equal to the replacement cost of the
hydropower lost as a result of the reallocations, and Southwestern would reimburse the preference
customers (Denison allottees) for an amount equal to the customers’ replacement cost of the
hydropower lost as a result of the reallocations.

In fiscal year 2010, the Corps executed water supply contracts for the 150,000 acre-feet of storage
authorized for customers in the State of Texas by Section 838. According to a June 2010 agreement
between Southwestern and the Corps, the Corps agreed to deposit all cost of storage payments for
storage reallocated under Section 838 into the U.S. Treasury and to provide credits in the same
amount to the hydropower income account. The total amount received of $58,786,011 was deferred
by Southwestern for the provision of the reimbursement to the Denison allottees and Southwestern
for future hydropower storage revenues foregone. The reallocation deferral accrued interest at 2.75%
and 4.00% of the outstanding balance for the years ended September 30, 2013 and 2012,
respectively, based on law, administrative order, or administrative policy. Interest earned on the
outstanding balance totaled $1,642,289 and $2,357,342 for the years ended September 30, 2013 and
2012, respectively.

A September 2010 agreement between Southwestern and the Denison allottees provided the initial
hydropower replacement cost as determined by Southwestern and the methodology for providing the
reimbursement to the Denison allottees as authorized under Section 838. Beginning with the invoice
for the October 2010 service month, reimbursement pursuant to Section 838 began as a credit on the
Denison allottees’ monthly invoices.

Purchased Power and Banking Exchange Deferral

SWFPS utilizes a separate rate component (purchased power adder) to recover the estimated cost of
purchased power based upon the average purchased power costs expected to occur in the future. If
the actual expenses of purchased power exceed the revenue generated from this adder, the cost is
deferred for future recovery through the rates. Likewise, if the expense is less than the adder, the
excess revenue is deferred. From time to time, SWFPS may utilize a separate rate component (adder
adjustment) to manage additional purchased power expenses or excess revenues, respectively. The
net purchased power deferral accrued interest at 2.75% and 4.00% of the outstanding balance for the
years ended September 30, 2013 and 2012, respectively, based on law, administrative order, or
administrative policy.

SWFPS has arrangements with certain customers in which excess power available on the power
system is banked with the customer until needed by the power system and the customer has power
available. The power system records a receivable for the power banked at the cost specified in the
marketing arrangement, under the provisions of ASC Topic 845, Nonmonetary Transactions. The net
revenue or expense associated with banking activity is deferred until the power is returned or
delivered.

                                          17
                                                                                           Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



(h)   Accounts Receivable
      SWFPS’s accounts receivable consist generally of receivables for power and energy sold to its
      customers who are primarily public bodies and cooperatives. SWFPS provides for uncollectible
      accounts if collection is in doubt. No allowance for uncollectible accounts was considered necessary
      for any year presented herein.

      Billing methods used by Southwestern include net billing and bill crediting. Net billing is an
      agreement between Southwestern and a customer, whereby the customer’s power invoice is credited
      and the funds received from the sale of power are used to fund transmission and generation activities.
      Net billing is discussed more fully in note 4(b). Bill crediting involves a billing arrangement among
      Southwestern, a customer, and a third party, whereby the customer’s power invoice is credited and
      the customer pays a third party for goods or services received by Southwestern. Under Southwestern
      billing methods, purchase and sale transactions are reported “gross” in the combined financial
      statements.

(i)   Concentration of Credit Risk
      Financial instruments, which potentially subject SWFPS to credit risk, include accounts receivable
      for customer purchases of power, transmission, or other products and services. These receivables are
      primarily with a group of diverse customers that are generally stable, and established organizations,
      which do not represent a significant credit risk. Although SWFPS is affected by the business
      environment of the utility industry, management does not believe a significant risk of loss from a
      concentration of credit exists.

(j)   Interest on Payable to U.S. Treasury
      Interest on Payable to U.S. Treasury is a cost mandated by the Secretary of Energy and by the FERC.
      SWFPS computes interest in accordance with DOE Order RA 6120.2, which provides that interest be
      computed on the remaining investment after revenues have been applied to recovery of costs during
      the year, any prior year unpaid costs, and also to unpaid Federal investment at the applicable interest
      rate.

(k)   Allowance for Funds Used During Construction
      The FERC Uniform System of Accounts defines Allowance for Funds Used During Construction as
      the net costs for the period of borrowed funds used for construction purposes and a reasonable rate
      on other funds when so used. While cash is not realized currently from this allowance, it is realized
      under the rate-making process over the repayment life of the related property through increased
      revenues resulting from a higher recoverable investment. The interest rates used were 2.75% and
      4.00% for the years ended September 30, 2013 and 2012, respectively, based on law, administrative
      order, or administrative policy.

(l)   Retirement Benefits
      SWFPS employees participate in one of the following contributory defined benefit plans: the Civil
      Service Retirement System (CSRS) or Federal Employees Retirement System (FERS). Agency
      contributions are based on eligible employee compensation and are submitted to benefit program

                                                 18
                                                                                            Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



      trust funds administered by the Office of Personnel Management (OPM). Based on statutory
      contribution rates, the fiscal years 2013 and 2012 cost factors under CSRS were 32.3% and 29.8%,
      respectively, of basic pay. The cost factors under FERS for fiscal years 2013 and 2012 were 14.2%
      and 13.7%, respectively, of basic pay. The contribution levels, however, are legislatively mandated
      and do not reflect the current full cost requirements to fund the plans. Costs incurred by OPM on
      behalf of SWFPS are included as transfers of property and services, net within the Payable to
      U.S. Treasury on the combined balance sheets.

      Other retirement benefits administered by the OPM include the Federal Employees Health Benefits
      Program (FEHB) and the Federal Employees Group Life Insurance Program (FEGLI). FEHB is
      calculated at $5,190 and $5,817, per enrolled employee, for fiscal years 2013 and 2012, respectively,
      and FEGLI is based on 0.02% of basic pay for each employee enrolled in these programs.

      In addition to the amounts contributed to the CSRS and FERS as stated above, SWFPS recorded an
      expense and related liability for the pension and other postretirement benefits in the combined
      financial statements of $3,363,767 and $3,536,950 for the years ended September 30, 2013 and
      2012, respectively. These amounts reflect the contributions made on behalf of SWFPS by OPM to
      the benefit program trust funds.

      As a Federal agency, all post-retirement activity is managed by OPM, therefore, neither the assets of
      the plans nor the actuarial data with respect to the accumulated plan benefits relative to Southwestern
      and the Corps employees are included in this report.

(m)   Transfers of Property and Services, Net
      Transfers of property and services, net is a component of total capitalization that represents the
      cumulative receipt of transfers of assets or costs offset by the cumulative disbursement of transfers of
      revenues. Transfers are recognized upon physical delivery of the asset of performance of the service.
      Transfers occur between projects, project types, and other Federal entities. Transfers between
      Southwestern and the Corps eliminate upon combination.

(n)   Income Taxes
      As agencies of the U.S. Government, Southwestern and the Corps are exempt from all income taxes
      imposed by any governing body, whether it is a Federal, state, or commonwealth of the United
      States.

(o)   Use of Estimates
      The preparation of the combined financial statements in conformity with U.S. GAAP requires
      management of SWFPS to make estimates and assumptions that affect the reported amounts of assets
      and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
      statements, and the reported amounts of revenues and expenses during the reporting period.
      Significant items subject to such estimates and assumptions include the useful lives of completed
      utility plant, allowances for doubtful accounts, employee benefit obligations, and other
      contingencies. Actual results could differ from those estimates.



                                                 19
                                                                                          Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                             Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



(p)   Non Reimbursable Activities
      Non reimbursable activity for the years ended September 30, 2013 and 2012 consists of the
      following:

                                                                           2013                 2012
      Non reimbursable revenues:
        Non-Federal project revenue                                $        387,468             378,392
        Federal project revenue                                           1,502,524                (943)
        Interest revenue                                                     95,010              80,692
                     Total non reimbursable revenues               $      1,985,002             458,141
      Non reimbursable expenses:
        Non-Federal project expense                                $        387,468             378,392
        Federal project expense                                           1,502,524                (943)
        White River Minimum Flows expense                                 3,469,469           3,532,827
        Spectrum Relocation Fund expense                                 11,746,365           2,803,865
        Other project expense                                               675,620              26,487
                     Total non reimbursable expenses               $     17,781,446           6,740,628


      Federal and Non Federal Projects
      Southwestern has agreements with Federal and non-Federal entities to provide services on a cost
      basis. Non-Federal entities are required to provide advance payment for Southwestern’s services.
      The operating revenues and expenses related to these services are excluded from the rate-making
      process. A portion of cash and advances for construction in the accompanying combined financial
      statements relate to these activities.

      Escrow Interest Revenue
      Interest revenue represents the interest earned on funds held in escrow. These funds are authorized
      specifically to fund operation, maintenance, rehabilitation, and modernization activities at
      hydroelectric generating facilities of the Corps in SWFPS’s marketing region. This activity is non
      reimbursable through the rate-making process.

      White River Minimum Flows Project
      In accordance with Section 132 of P.L. 109-103, Southwestern implemented the offset to the
      minimum flows project in fiscal year 2010. Section 132 provided that losses to Federal hydropower
      shall be offset by a reduction in the costs allocated to the Federal hydropower purpose. Southwestern
      determined the Federal hydropower impacts to include lost on-peak energy and capacity, lost off-
      peak energy, increased costs due to dissolved oxygen impacts, and increased maintenance costs at
      Bull Shoals. This activity is non reimbursable through the rate-making process.

                                                20
                                                                                             Attachment



                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2013 and 2012



      Spectrum Relocation Fund
      In December 2004, the U.S. Congress passed and the President signed the Commercial Spectrum
      Enhancement Act (CSEA, Title II of P.L. 108-494), creating the Spectrum Relocation Fund (SRF) to
      streamline the relocation of Federal systems from existing spectrum bands to accommodate
      commercial use by facilitating reimbursement to affected agencies of relocation costs. In fiscal years
      2012, 2009, and 2007, Southwestern received $17,000,000, $17,730,000, and $8,091,360,
      respectively, in spectrum relocation funds, as approved by the Office of Management and Budget,
      and as reported to the Congress. In fiscal years 2013 and 2012, Southwestern expensed $11,746,365
      and $2,803,865, respectively. Expenses incurred represent labor, service contracts, travel, and other
      administrative costs. This activity is non reimbursable through the rate-making process.

(q)   Derivative and Hedging Activities
      Southwestern analyzes derivative financial instruments under ASC Topic 815, Derivatives and
      Hedging. This standard requires that all derivative instruments, as defined by ASC Topic 815, be
      recorded on the combined balance sheets at fair value, unless exempted. Changes in a derivative
      instrument’s fair value must be recognized currently in the combined statement of revenues and
      expenses, unless the derivative has been designated in a qualifying hedging relationship. The
      application of hedge accounting allows a derivative instrument’s gains and losses to offset related
      results of the hedged item in the combined statements of revenues and expenses to the extent
      effective. ASC Topic 815 requires that the hedging relationship be highly effective and that an
      organization formally designate a hedging relationship at the inception of the contract to apply hedge
      accounting.

      Southwestern enters into contracts for the sale of electricity for use in its business operations. ASC
      Topic 815 requires Southwestern to evaluate these contracts to determine whether the contracts are
      derivatives. Certain contracts that literally meet the definition of a derivative may be exempted from
      ASC Topic 815 as normal purchases or normal sales. Normal purchases and sales are contracts that
      provide for the purchase or sale of something other than a financial instrument or derivative
      instrument that will be delivered in quantities expected to be used or sold over a reasonable period of
      time in the normal course of business. Contracts that meet the requirements of normal purchases or
      sales are documented and exempted from the accounting and reporting requirements of ASC Topic
      815.

      Southwestern’s policy is to fulfill all derivative and hedging contracts by providing power to a third
      party as provided for in each contract. Southwestern’s policy does not authorize the use of derivative
      or hedging instruments for speculative purposes such as hedging electricity pricing fluctuations
      beyond Southwestern’s estimated capacity to deliver power. Accordingly, Southwestern evaluates all
      of its contracts to determine if they are derivatives and, if applicable, to ensure that they qualify and
      meet the normal purchases and normal sales designation requirements under ASC Topic 815.
      Normal sales contracts are accounted for as executory contracts as required under U.S. GAAP. As of
      September 30, 2013 and 2012, Southwestern has no contracts accounted for as derivatives.




                                                  21
                                                                                                 Attachment



                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Notes to Combined Financial Statements
                                           September 30, 2013 and 2012



      (r)   Fair Value of Financial Instruments
            ASC Topic 825, Financial Instruments, requires disclosure of the fair value of financial instruments.
            The carrying (recorded) value of short-term financial instruments, including cash, funds held in
            escrow, accounts receivable, accounts payable and accrued liabilities, and advances for construction,
            approximates the fair value of these instruments because of the short maturity of these instruments.
            The fair value of certain unfunded and actuarially based liabilities cannot be determined as the future
            payout dates have yet to be determined.

(2)   Utility Plant
      Utility plant as of September 30, 2013 and 2012 consists of the following:

                                                                                   2013                 2012
      Plant in service:
         Generating facilities                                           $ 1,153,886,436         1,139,425,949
         Transmission facilities                                             343,607,996           322,079,152
                                                                              1,497,494,432      1,461,505,101
      Less accumulated depreciation                                            (701,560,020)      (675,046,190)
      Construction work in progress:
        Generating facilities                                                  191,215,272         160,473,825
        Transmission facilities                                                 21,469,139          27,231,883
                                                                               212,684,411         187,705,708
                      Net utility plant                                  $ 1,008,618,823           974,164,619


      In accordance with FERC guidelines, SWFPS excludes contributed plant within the combined balance
      sheets to eliminate the impact on power rates. As of September 30, 2013 and 2012, contributed plant, net
      used in SWFPS’s operations totaled $16,946,019.

(3)   Regulatory Assets and Liabilities
      Regulatory assets and liabilities as of September 30, 2013 and 2012 consist of the following:
                                                                                   2013                 2012
      Regulatory assets:
        Deferred workers’ compensation                                    $     13,332,550            14,372,940
      Regulatory liabilities:
        Hydropower water storage reallocation deferral                    $     60,568,075            60,513,411
        Purchased power and banking exchange deferral                           28,519,474            39,436,080
                      Total                                               $     89,087,549            99,949,491


                                                       22
                                                                                                 Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2013 and 2012



      Southwestern’s purchased power and banking exchange deferral account represents the deferral of net
      revenue or expenses associated with net purchased power and banking exchange activities as follows:
                                                                                                  Purchased
                                                                                                    power
                                                                                                 and banking
                                                                                                  exchange
                                                                                                   deferral
      September 30, 2011                                                                     $    (54,221,980)
      Purchased power adder revenue                                                               (11,961,869)
      Purchased power expense                                                                      28,635,408
      Net banking exchange                                                                            (13,742)
                    Net purchased power and banking exchange deferral                              16,659,797
      Interest on deferred activities and other                                                    (1,873,897)
      September 30, 2012                                                                          (39,436,080)
      Purchased power adder revenue                                                               (15,782,791)
      Purchased power expense                                                                      27,950,908
      Net banking exchange                                                                            (55,678)
                    Net purchased power and banking exchange deferral                              12,112,439
      Interest on deferred activities and other                                                    (1,195,833)
      September 30, 2013                                                                     $    (28,519,474)


(4)   Financing Sources

      SWFPS’s financing sources include annual appropriations, Federal power receipts (Use of Receipts), and
      alternative financing arrangements to fund its operations.

      (a)   Payable to U.S. Treasury
            Construction and operation of Southwestern’s transmission system and the Corps’ generating
            facilities and operations are financed through congressional appropriations. The exceptions are
            capital assets and maintenance activities funded through the alternative financing arrangements and
            the funding by non-Federal parties of the construction of the Robert Douglas Willis project. The
            U.S. Government’s investment in each generating project and each year’s investment in the
            transmission system is to be repaid to the Treasury over a period not to exceed 50 years from the
            time the facility is placed in service. There is no requirement for repayment of a specific amount on
            an annual basis.

            Revenues received from the sale of Federal power and purchased power are generally deposited with
            the Treasury. Annual revenues are first applied to the current year operating expenses (less
            depreciation) and interest expense. All annual amounts for such expenses have been paid through
            fiscal year 2013. Remaining revenues are to be first applied to repayment of operating deficits
                                                      23
                                                                                                 Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2013 and 2012



            (which include all expenses except depreciation), if any, and then to repayment of the Payable to
            U.S. Treasury. To the extent possible, while still complying with the repayment period established
            for each increment of investment and unless otherwise required by legislation, repayment of the
            investment is to be accomplished by a repayment of the highest interest-bearing investment first.
            Interest rates applied to the unamortized initial investment of the U.S. Government in the Corps’
            hydroelectric generating facilities range from 2.50% to 5.75% for unpaid facilities in service prior to
            fiscal year 2013 and 2.75% for facilities placed in service during fiscal year 2013. The rates have
            been set by law, by administrative order pursuant to law, or by administrative policies using the
            U.S. Senate Document No. 97 formula for the fiscal year during which the appropriations were
            requested.

      (b)   Alternative Financing
            Due to fluctuations in the amount of annual appropriations received to fund operations, maintenance,
            rehabilitation, and modernization of the SWFPS facilities, SWFPS has established an alternative
            financing program under reimbursable authority regulations. Under agreements with customers to
            finance projects, which benefit the SWFPS, funds received from the sale of power are net billed,
            allowing a portion of the funds to be utilized to finance agreed-upon projects rather than returned to
            the Treasury. Under the agreements with certain customers, alternative financing restricted
            specifically to fund operation, maintenance, rehabilitation, and modernization activities at the
            hydroelectric generating facilities are held in escrow. All other alternative financing arrangements
            are collected by Southwestern and deposited as cash held by the Treasury, and are reflected as other
            assets with an offsetting liability included in advances for construction, until completion of the
            project at which time the asset and liability are eliminated.

(5)   Commitments and Contingencies
      (a)   General
            Based on the 2013 Integrated System Power Repayment Study prepared as of September 30, 2013,
            the projected increase in capital investment in 2013 is $90,467,922, which includes $19,927,276 for
            transmission facilities and $70,540,646 for generating facilities. The five-year investment increase
            projected in the 2013 Integrated System Power Repayment Study for fiscal years 2013 through 2017
            is estimated to cost $698,006,666. It is reasonably possible that a change in estimate will occur.
            Southwestern sells the majority of its marketable power to customers under long-term power sales
            contracts of 15 years, which require Southwestern to provide 1,200 kilowatt hours per kilowatt of
            peaking contract demand per year, subject to scheduling constraints outlined in each customer’s
            contract. If sufficient power is unavailable to Southwestern from Corps hydroelectric facilities to
            meet these commitments, Southwestern may be required to purchase power from other sources to
            meet these commitments. The cost to purchase such power is recovered through the purchased power
            adder discussed more fully in note 1(g).

      (b)   Legal
            SWFPS has exposure to certain claims and legal actions arising in the ordinary course of business. In
            management’s opinion, any resulting actions will not have a material adverse effect on the financial
            condition or results of operations of SWFPS as of September 30, 2013 and 2012.

                                                       24
                                                                                                 Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                         September 30, 2013 and 2012



(6)   Leases
      SWFPS is obligated under a 10-year operating lease for office space. This lease consists of a five-year firm
      term for the first five years and the option to terminate during the second five-year term. This lease
      commenced January 1, 2004 and is scheduled to terminate December 31, 2013. Future minimum lease
      payments as of September 30, 2013 are as follows:
                           Year ending September 30:
                             2014                                        $        178,000
                                         Total future minimum lease
                                           payments                      $        178,000



      Rent expense for operating leases during the years ended September 30, 2013 and 2012 was $743,000 and
      $713,000, respectively.

      SWFPS extended the lease for office space on January 1, 2014. The lease is a 20-year operating lease for
      office space, which commenced January 1, 2014 and is scheduled to terminate December 31, 2033. This
      lease consists of a 10-year firm term for the first 10 years and the option to terminate during the second
      10-year term. Future minimum lease payments as of September 30, 2013 are as follows:

                           Year ending September 30:
                             2014                                        $        552,000
                             2015                                                 742,000
                             2016                                                 751,000
                             2017                                                 761,000
                             2018                                                 770,000
                             Thereafter                                        14,171,000
                                         Total future minimum lease
                                           payments                      $     17,747,000




                                                       25
                                                                                                Attachment



                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                         September 30, 2013 and 2012



(7)   Related Parties
      As components of DOE and DOD, these departments are considered related parties to Southwestern and
      the Corps. Southwestern has certain agreements with DOE and DOD components to provide electric
      power, transmission services, and other services. As of September 30, 2013 and 2012, amounts outstanding
      in accounts receivable relating to DOE and DOD components totaled $268,783 and $248,434, respectively;
      for the years ended September 30, 2013 and 2012, total operating revenues earned from DOE and DOD
      sources totaled $3,646,463 and $3,468,290, respectively.
(8)   Subsequent Events
      On September 30, 2013, the Deputy Secretary of Energy approved on an interim basis a change to the
      Integrated System rate schedules and the new rate schedules incorporated a 4.7% increase. The rate
      schedules were placed into effect October 1, 2013 and will remain in effect through September 30, 2017.

      On September 30, 2013, the Deputy Secretary of Energy approved a 7.1% increase for the Sam Rayburn
      Dam project on an interim basis for the period October 1, 2013 through September 30, 2017.

      SWFPS has evaluated subsequent events from the balance sheet date through June 18, 2014, the date at
      which the combined financial statements were available to be issued, and such events are disclosed in these
      accompanying notes.




                                                      26
                                                                                                    Attachment



                                                                                                         Schedule 1
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Combining Schedule of Balance Sheet Data
                                                     September 30, 2013


                         Assets                                  Southwestern         Corps              Total
Plant in service                                            $     343,607,996     1,153,886,436      1,497,494,432  
Accumulated depreciation                                         (169,911,186)     (531,648,834)      (701,560,020) 
Construction work in progress                                      21,469,139       191,215,272        212,684,411  
              Net utility plant                                   195,165,949      813,452,874       1,008,618,823  
Cash                                                              127,741,038      134,937,393        262,678,431  
Funds held in escrow                                               13,550,027       60,279,200         73,829,227  
Accounts receivable                                                22,709,919          255,737         22,965,656  
Material and supplies, at average cost                              2,963,442           24,631          2,988,073  
Banking exchange receivables                                        4,151,402               —           4,151,402  
Deferred workers’ compensation                                      3,963,184        9,369,366         13,332,550  
Other assets                                                       55,418,827               —          55,418,827  
              Total assets                                  $     425,663,788     1,018,319,201      1,443,982,989  
            Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                 $       8,731,416       10,764,209          19,495,625  
   Advances for construction                                       47,150,029               —           47,150,029  
   Accrued workers’ compensation                                    4,992,410        9,591,708          14,584,118  
   Purchased power and banking exchange deferral                   28,519,474               —           28,519,474  
   Hydropower water storage reallocation deferral                  60,568,075               —           60,568,075  
              Total liabilities                                   149,961,404        20,355,917       170,317,321  
Capitalization:
  Payable to U.S. Treasury                                        196,730,124      740,260,747        936,990,871  
  Accumulated net revenues                                         78,972,260      257,702,537        336,674,797  
              Total capitalization                                275,702,384      997,963,284       1,273,665,668  


              Total liabilities and capitalization          $     425,663,788     1,018,319,201      1,443,982,989  


See accompanying independent auditors’ report.




                                                            27
                                                                                                    Attachment



                                                                                                         Schedule 1
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Combining Schedule of Balance Sheet Data
                                                     September 30, 2012


                         Assets                                  Southwestern         Corps              Total
Plant in service                                            $     322,079,152     1,139,425,949      1,461,505,101  
Accumulated depreciation                                         (159,120,296)     (515,925,894)      (675,046,190) 
Construction work in progress                                      27,231,883       160,473,825        187,705,708  
              Net utility plant                                   190,190,739      783,973,880        974,164,619  
Cash                                                               98,740,474      127,174,724        225,915,198  
Funds held in escrow                                               18,559,960       68,036,590         86,596,550  
Accounts receivable                                                17,530,560          111,367         17,641,927  
Material and supplies, at average cost                              2,887,797           24,631          2,912,428  
Banking exchange receivables                                        4,152,093               —           4,152,093  
Deferred workers’ compensation                                      3,806,422       10,566,518         14,372,940  
Other assets                                                       33,291,690               —          33,291,690  
              Total assets                                  $     369,159,735      989,887,710       1,359,047,445  
            Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                 $       9,332,612        5,616,546          14,949,158  
   Advances for construction                                       22,632,486               —           22,632,486  
   Accrued workers’ compensation                                    4,793,829       10,844,766          15,638,595  
   Purchased power and banking exchange deferral                   39,436,080               —           39,436,080  
   Hydropower water storage reallocation deferral                  60,513,411               —           60,513,411  
              Total liabilities                                   136,708,418       16,461,312        153,169,730  
Capitalization:
  Payable to U.S. Treasury                                        138,839,114      758,122,740        896,961,854  
  Accumulated net revenues                                         93,612,203      215,303,658        308,915,861  
              Total capitalization                                232,451,317      973,426,398       1,205,877,715  


              Total liabilities and capitalization          $     369,159,735      989,887,710       1,359,047,445  


See accompanying independent auditors’ report.




                                                            28
                                                                                                                                                                   Attachment


                                                                                                                                                                            Schedule 2
                                                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                                              Combining Schedule of Changes in Capitalization Data
                                                                    Years ended September 30, 2013 and 2012


                                                                           Southwestern                                                  Corps
                                                         Southwestern      accumulated        Southwestern           Corps            accumulated         Corps
                                                          payable to       net revenues           total           payable to          net revenues         total            Total
                                                         U.S. Treasury       (deficit)        capitalization     U.S. Treasury          (deficit)      capitalization   capitalization
Total capitalization as of September 30, 2011        $    107,130,923        81,451,119        188,582,042            751,282,118     183,678,018       934,960,136     1,123,542,178  
Additions:
  Congressional appropriations                             11,892,000        17,000,000          28,892,000            39,937,037               —        39,937,037        68,829,037  
  Interest on payable to U.S. Treasury and other              816,696                —              816,696            15,014,790               —        15,014,790        15,831,486  
  Transfers of property and services, net                 (57,501,800)               —          (57,501,800)           62,469,392               —        62,469,392         4,967,592  
              Total additions to capitalization           (44,793,104)       17,000,000         (27,793,104)          117,421,219               —       117,421,219        89,628,115  
Deductions:
  Payments to U.S. Treasury                                76,501,295                 —          76,501,295          (110,580,597)              —      (110,580,597)     (34,079,302) 
Net revenues for the year ended September 30, 2012                 —          (4,838,916)        (4,838,916)                   —        31,625,640       31,625,640        26,786,724  
Total capitalization as of September 30, 2012             138,839,114        93,612,203        232,451,317           758,122,740      215,303,658       973,426,398     1,205,877,715  
Additions:
  Congressional appropriations                             11,243,216                 —          11,243,216            32,881,680               —        32,881,680        44,124,896  
  Interest on payable to U.S. Treasury and other            2,174,291                 —           2,174,291            17,469,183               —        17,469,183        19,643,474  
  Transfers of property and services, net                 (32,782,408)                —         (32,782,408)           49,167,472               —        49,167,472        16,385,064  
              Total additions to capitalization           (19,364,901)                —         (19,364,901)           99,518,335               —        99,518,335        80,153,434  
Deductions:
  Payments to U.S. Treasury                                77,255,911                 —          77,255,911          (117,380,328)              —      (117,380,328)     (40,124,417) 
Net revenues for the year ended September 30, 2013                 —        (14,639,943)        (14,639,943)                   —        42,398,879       42,398,879        27,758,936  
Total capitalization as of September 30, 2013        $    196,730,124        78,972,260        275,702,384           740,260,747      257,702,537       997,963,284     1,273,665,668  


See accompanying independent auditors’ report.




                                                                                     29
                                                                                                   Attachment



                                                                                                       Schedule 3
                                 SOUTHWESTERN FEDERAL POWER SYSTEM
                                 Combining Schedule of Revenues and Expenses Data
                                            Year ended September 30, 2013


                                                               Southwestern         Corps               Total
Operating revenues:
  Sales of electric power                                  $   163,239,834                 —         163,239,834   
  Transmission and other operating revenues                     19,216,812          1,399,886         20,616,698   
              Total operating revenues before deferrals        182,456,646          1,399,886        183,856,532   
  Net purchased power and banking exchange deferral              12,112,439               —           12,112,439   
  Revenue distributed to Corps                                 (113,185,966)     113,185,966                  —    
              Total operating revenues                           81,383,119      114,585,852         195,968,971   
  Non reimbursable revenues                                       1,932,392            52,610          1,985,002   
              Total revenues                                     83,315,511      114,638,462         197,953,973   
Operating expenses:
  Operation and maintenance                                      27,128,906       43,820,360          70,949,266   
  Purchased power and banking exchange                           29,447,690               —           29,447,690   
  Depreciation and amortization                                  12,746,019       16,138,444          28,884,463   
  Transmission service charges by others                          3,160,203               —            3,160,203   
  Retirement and other employee benefit expense                   4,349,207        2,247,723           6,596,930   
  Non reimbursable expenses                                      17,781,446               —           17,781,446   
              Total operating expenses                           94,613,471       62,206,527         156,819,998   
              Net operating revenues (deficit)                  (11,297,960)      52,431,935          41,133,975   
Interest expense:
   Interest on payable to U.S. Treasury and other                 4,627,606       17,469,183          22,096,789   
   Allowance for funds used during construction                  (1,285,623)      (7,436,127)         (8,721,750)  
              Net interest expense                                3,341,983       10,033,056          13,375,039   
              Net revenues (deficit)                       $    (14,639,943)      42,398,879          27,758,936   


See accompanying independent auditors’ report.




                                                          30
                                                                                                   Attachment



                                                                                                       Schedule 3
                                 SOUTHWESTERN FEDERAL POWER SYSTEM
                                 Combining Schedule of Revenues and Expenses Data
                                            Year ended September 30, 2012


                                                               Southwestern         Corps               Total
Operating revenues:
  Sales of electric power                                  $   156,918,798                 —         156,918,798   
  Transmission and other operating revenues                     19,595,140          1,779,505         21,374,645   
              Total operating revenues before deferrals        176,513,938          1,779,505        178,293,443   
  Net purchased power and banking exchange deferral              16,659,798               —           16,659,798   
  Revenue distributed to Corps                                 (109,160,897)     109,160,897                  —    
              Total operating revenues                           84,012,839      110,940,402         194,953,241   
  Non reimbursable revenues                                         437,641            20,500            458,141   
              Total revenues                                     84,450,480      110,960,902         195,411,382   
Operating expenses:
  Operation and maintenance                                      27,108,182       50,640,018          77,748,200   
  Purchased power and banking exchange                           31,776,926               —           31,776,926   
  Depreciation and amortization                                  12,654,139       15,756,808          28,410,947   
  Transmission service charges by others                          3,083,784               —            3,083,784   
  Retirement and other employee benefit expense                   4,733,706        2,399,430           7,133,136   
  Non reimbursable expenses                                       6,740,628               —            6,740,628   
              Total operating expenses                           86,097,365       68,796,256         154,893,621   
              Net operating revenues (deficit)                   (1,646,885)      42,164,646          40,517,761   
Interest expense:
   Interest on payable to U.S. Treasury and other                 4,901,811       15,003,739          19,905,550   
   Allowance for funds used during construction                  (1,709,780)      (4,464,733)         (6,174,513)  
              Net interest expense                                3,192,031       10,539,006          13,731,037   
              Net revenues (deficit)                       $     (4,838,916)      31,625,640          26,786,724   


See accompanying independent auditors’ report.




                                                          31
                                                                                                              Attachment


                                                                                                                   Schedule 4
                                        SOUTHWESTERN FEDERAL POWER SYSTEM
                                                Combining Schedule of Cash Flows Data
                                                    Year ended September 30, 2013


                                                                            Southwestern        Corps              Total
Cash flows from operating activities:
  Net revenues (deficit)                                                $    (14,639,943)      42,398,879         27,758,936  
  Adjustments to reconcile net revenues (deficit) to net cash
     provided by (used in) operating activities:
        Revenue distributed to Corps                                         113,185,966     (113,185,966)                —  
        Depreciation and amortization                                         12,746,019       16,138,444         28,884,463  
        Benefit expense paid by other Federal agencies                         1,338,386        2,025,381          3,363,767  
        Interest on payable to U.S. Treasury and other                         4,627,606       17,469,183         22,096,789  
        Allowance for funds used during construction                          (1,285,623)      (7,436,127)        (8,721,750) 
        (Increase) decrease in assets:
           Accounts receivable                                                (5,179,359)        (144,370)        (5,323,729) 
           Materials and supplies                                                (75,645)              —             (75,645) 
           Banking exchange receivables                                              691               —                 691  
           Deferred workers’ compensation                                       (156,762)       1,197,152          1,040,390  
           Other assets                                                      (22,127,137)              —         (22,127,137) 
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                             (601,196)       5,147,663          4,546,467  
           Accrued workers’ compensation                                         198,581       (1,253,058)        (1,054,477) 
           Purchased power and banking exchange deferral                     (11,727,631)              —         (11,727,631) 
           Advances for construction                                          24,517,543               —          24,517,543  
               Net cash provided by (used in) operating activities           100,821,496      (37,642,819)        63,178,677  
Cash flows used in investing activities:
  Additions to utility plant                                                 (16,435,606)     (38,181,311)       (54,616,917) 
Cash flows from financing activities:
  Congressional appropriations                                                11,243,216       32,881,680         44,124,896  
  Payments to U.S. Treasury                                                   77,255,911     (117,380,328)       (40,124,417) 
  Revenue distributed to Corps                                              (113,185,966)     113,185,966                 —  
  Transfers of property and services, net                                    (34,120,794)      47,142,091         13,021,297  
  Hydropower water storage reallocation deferral                              (1,587,626)              —          (1,587,626) 
  Funds received in escrow                                                   (32,724,598)      (5,552,610)       (38,277,208) 
  Funds disbursed from escrow                                                 37,734,531       13,310,000         51,044,531  
               Net cash (used in) provided by financing activities           (55,385,326)      83,586,799         28,201,473  
               Net increase in cash                                           29,000,564        7,762,669         36,763,233  
Cash, beginning of year                                                       98,740,474     127,174,724         225,915,198  
Cash, end of year                                                       $    127,741,038     134,937,393         262,678,431  
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                           $      2,453,315                —          2,453,315  


See accompanying independent auditors’ report.




                                                                 32
                                                                                                               Attachment


                                                                                                                    Schedule 4
                                        SOUTHWESTERN FEDERAL POWER SYSTEM
                                                 Combining Schedule of Cash Flows Data
                                                     Year ended September 30, 2012


                                                                             Southwestern        Corps              Total
Cash flows from operating activities:
  Net revenues                                                           $     (4,838,917)      31,625,641         26,786,724  
  Adjustments to reconcile net revenues to net cash
     provided by (used in) operating activities:
        Revenue distributed to Corps                                          109,160,897     (109,160,897)                —  
        Depreciation and amortization                                          12,654,139       15,756,808         28,410,947  
        Benefit expense paid by other Federal agencies                          1,415,767        2,121,183          3,536,950  
        Interest on payable to U.S. Treasury and other                          4,848,177       15,014,790         19,862,967  
        Allowance for funds used during construction                           (1,709,780)      (4,464,733)        (6,174,513) 
        (Increase) decrease in assets:
           Accounts receivable                                                 (2,460,881)          93,528         (2,367,353) 
           Materials and supplies                                                (223,619)              —            (223,619) 
           Banking exchange receivables                                          (187,076)              —            (187,076) 
           Deferred workers’ compensation                                         906,245       (2,514,520)        (1,608,275) 
           Other assets                                                        (2,067,269)              —          (2,067,269) 
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                             2,612,307       (2,534,600)            77,707  
           Accrued workers’ compensation                                         (896,357)       2,580,329          1,683,972  
           Purchased power and banking exchange deferral                      (16,460,039)              —         (16,460,039) 
           Advances for construction                                             (110,236)              —            (110,236) 
               Net cash provided by (used in) operating activities            102,643,358      (51,482,471)        51,160,887  
Cash flows used in investing activities:
  Additions to utility plant                                                  (21,514,409)     (30,790,978)       (52,305,387) 
Cash flows from financing activities:
  Congressional appropriations                                                 28,892,000       39,937,037         68,829,037  
  Payments to U.S. Treasury                                                    76,501,295     (110,580,597)       (34,079,302) 
  Revenue distributed to Corps                                               (109,160,897)     109,160,897                 —  
  Transfers of property and services, net                                     (58,917,568)      60,348,210          1,430,642  
  Hydropower water storage reallocation deferral                               (1,554,971)              —          (1,554,971) 
  Funds received in escrow                                                    (50,547,873)     (48,315,500)       (98,863,373) 
  Funds disbursed from escrow                                                  59,675,839        6,795,000         66,470,839  
               Net cash (used in) provided by financing activities            (55,112,175)      57,345,047          2,232,872  
               Net increase (decrease) in cash                                 26,016,774      (24,928,402)         1,088,372  
Cash, beginning of year                                                        72,723,700     152,103,126         224,826,826  
Cash, end of year                                                        $     98,740,474     127,174,724         225,915,198  
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                            $      4,031,481                —          4,031,481  


See accompanying independent auditors’ report.




                                                                 33
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
